June 16, 2020

Via Overnight FedEx Delivery
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

State of Nevada, et al. v. Donald Walden Jr., et al., Case No. 19-1315

Dear Mr. Harris:
I am counsel of record for Donald Walden Jr., et al. (“Respondents”). I am writing to
respectfully request an extension of time for Respondents to file a response to Petitioners State of
Nevada, et al.’s Petition for Writ of Certiorari in the above entitled case. The response deadline is
currently set for June 26, 2020. I am requesting a sixty (60) day extension from that date, so that
Respondents’ response would be due Tuesday, August 25, 2020.
I have contacted counsel for Petitioners and they do not oppose this request.
Thank you very much for your consideration.
Very truly yours,
THIERMAN BUCK, LLP
Joshua D. Buck
Counsel for Respondents

Cc:

Aaron Ford, Counsel for Petitioners (Via Email)
Heidi Parry Stern, Counsel for Petitioners (Via Email)
Jeffrey M. Conner, Counsel for Petitioners (Via Email)
Steve Shevorski, Counsel for Petitioners (Via Email)

Doc ID: 3ce82547dcecce13ff81c3f3b4a7bc26ad7d5dca

